\

Supreme Court, U.S.
FILED

.<*

JUN 0 6 2021

9 'I! — ^ [C7 V7

' v ir-y

‘Kz)

O

IN THE
SUPREME COURT OF THE UNITED STATES

JAMAAL GITTENS
PETITIONER
v.
JUDGE MELISSA T PAVLACK

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES THIRD CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Jamaal Gittens
Marlene Street
Charlotte NC 28208

RECEIVED
AUG 2 4 2021

a°/si

TABLE OF CONTENTS
Page
Question Presented
Table of Contents
Table of Authorities

.3
.3
.2
3

Petition For Writ Of Certiorari

.3

Statement of the case.
7

Conclusion
APPENDIX A

Initial complaint to district court

APPENDIX C

appeal to third circuit

APPENDIX B
APPENDIX D
APPENDIX E

District court granting motion to Amend
District court denial of motion for consideration
.opinion from Third Circuit

APPENDIX F

Opinion from District Court

Page 1 of 9

TABLE OF AUTHORITIES
Page(s)
Cases

Tyler v judges of the court of registration 179 U.S 405
(12/17/1950)........................................................

1

South Carolina v United States 199 U.S. 437 at 199 U.S 450(1905).... 5
Forrester v White 484 U.S 219(1988)

3

Rohde Island v Massachusetts 37 U.S 657 (1838)

4

Atkinson Baker Associates v Kolts 7 F 3d 1452(9thcir 1993)...
Lord v Veazie, 49 U.S 8 How, 251 251(1850)

A
.4

Cleveland v Chamberlain 66, U.S1 Black 419 419(1861)
Blessing v freestone 520 U.S 329 (1997)

4
4

Wehuntt v Ledbetter 875 f.2d 1558 (June 27,1989)
Maynard v Williams 72 f.3d848(l 1th Cir 1996)

,4

4

Steel CO. v Citizens For Better Environment 523 U.S 83(1998)

4

Stump v Sparkman 435 U.S. 349,98 S CT. 1099 (1978)

9

Dykes v Housemann, 743 F.2d 1488 (11th Cir. 1980)
Ranking v Zeller 633 F.2d 844(1980)

9
9

Page 2 of 9

I. QUESTION PRESENTED
This is matter is a continuance of Jamaal Gittens v Elizabeth Kelly which is currently pending in
this court 19-8404. Judge Kelly transferred the states court judgments to judge Mellissa T
Pavlack, and she was able to freeze my banking account pursuant to 42 U.S 666, third circuit
affirms that these acts are judicial in nature, The question here is whether Mellissa T Pavlack
acted in clear absent of jurisdiction, did third circuit court err not granting my motion to amend,
did district court abuse discretion denying my motion for consideration. This appeal is also to
determine if judge Mellissa T Pavlack is suitable for a conspiracy deprivation of rights claim
under

18 U.S 241 18 U.S 242
n. PETITION FOR WRIT CERTIORARI

Petitioner Jamaal Gittens respectfully prays that a Writ of certiorari to vacate states void
judgment review, reverse judgment below
III. OPINIONS BELOW
Jamal Gittens v Mellissa T Pavlack Third Circuit Court unpublished opinion February 1,2021
^JURISDICTION
Third Circuit received my motion for rehearing by certified mail march 15, 2021 I received
confirmation that it was denied around April 2021 Jamaal Gittens invokes this court’s
jurisdiction under 28 U.S.C1257 having timely filed petition for writ certiorari within 90 days
V.STATEMENT OF THE CASE
In Jamaal Gittens v Elizabeth Kelly case 19-8404 which is currently pending before this court, I stated
that Pursuant to Pa CSA 4342(e) Judge Kelly, domestic Relations, had authority to obtain person
jurisdiction over me in the state of North Carolina, by showing proof of service, declaring me father of
child by default, for refusal to take a paternity, initiated child support withholdings against my wages,
pursuant to Pennoyer v Neff 95 U.S 714 (1978) Pennsylvania’s common law civil procedures 42 pa C.S
5301 she lacked personal, subject matter jurisdiction, her acts was administrative non judicial. Forester v
White 484 U.S.219 (1988)
Page 3 of 9

Judge Kelly transferred my case to Judge Melissa T Pavlack, and she was able to freeze my wells
forgo bank account pursuant to 42 USC 666,1 filed a law suit against Judge Melissa T in district
court of Pennsylvania, it was dismissed because I failed to state the claim, she acted in her
judicial capacity; I didn’t demonstrate violations of rights secured by the constitution, or
demonstrate that she acted under a color of law I filed a motion for rehearing in district court,
which was converted into a motion for consideration; was more detailed on why judge Pavlack
shouldn’t be relieved from civil liability, district denied my motion without reason I appeal to
third circuit, and they affirmed district court’s opinion February 1,2021, motion for rehearing
was denied
VLARGUMENT
Both Judge Elizabeth K Kelly, Judge Melissa T Pavlack lacked personal, subject matter
jurisdiction, Jurisdiction is the power to hear and determine the subject matter in controversy
between parties to suit, to adjudicate or exercise any judicial power over them Rohde Island v
Massachusetts 37 U.S 657 (1838)
Judicial acts are those involving the performance of the functions of resolving disputes between
parties, or authoritatively adjudicating private rights. Atkinson Baker Associates v Kolts 7 F 3d
1452(9th cir 1993)
Judge Elizabeth K Kelly, Judge Melissa, never had a dispute, case of controversy before them,
it’s been judicially determined, that Title IV-D contains no private remedy-either judicial or
administrative-through which aggrieved persons can seek redress., lord v Veazie, 49 U.S 8 How,
251 251(1850) Cleveland v Chamberlain 66, U.S1 Black 419 419(1861) Blessing v freestone
520 U.S 329 (1997) Wehuntt v Ledbetter 875 f.2d 1558 (June 27, 1989) Maynard v Williams 72
f.3d848(l 1th Cir 1996) Steel CO. v Citizens For Better Environment 523 U.S 83(1998)
Page 4 of 9

The doctrine of precedent is essential for the separation of legislative and judicial powers, if
judges had legislative power to “depart from” established legal principals, “the subject would be
in the hands of arbitrary judges, whose decisions would then regulated only by their own
opinions. Anastasoff v U.S. 223.F.3d 898 (8th cir 2000)
The constitution must be interpreted in the light of common law, the principals and history of
which were familiarly known to the framers of the constitution South Carolina v United States
199 U.S. 437 at 199 U.S 450(1905)
I initially commenced suit against Mellissa T Pavlack, because she seized my assets under a
color of law, in addition, I filed a law against domestic relation. Which was granted by District
court, .my claim against Mellissa T Pavlack was denied Because I failed to state the claim, she
acted in her judicial capacity; I didn’t demonstrate violations of rights secured by the
constitution,; demonstrated that she acted under a color of law I filed a motion for rehearing,
which was converted into a motion for consideration; was more detailed on why judge Pavlack
shouldn’t be relieved from civil liability, district denied my motion without reason
I appealed to third circuit; they affirmed district court’s decision. Stated because Judge Pavlack
is immune from suit; we agree with the District Court that allowing Gittens to amend his
complaint would have been futile. See Grayson v. Mayview State Hosp., 293 F.3d 103, 108 (3d
Cir. 2002);
District Court did not abuse its discretion in denying Gittens’ motion for reconsideration because
the motion did not meet the requirements under either Federal Rule of Civil Procedure 59(e) or
60(b). See Lazaridis v. Wehmer, 591 F.3d 666, 669 (3d Cir. 2010) (per curiam) (describing the
grounds for a motion for reconsideration under Rule 59(e)); Budget Blinds, 536 F.3d at 251 (3d
Cir. 2008) (describing same under Rule 60(b)).
Page 5 of 9

I filed a motion for rehearing, because Mellissa T Pavlack lacked jurisdiction, my motion to
amendment was granted by District court; The motion for consideration was denied without
reason, Third circuit denied my motion rehearing, even after I provided documentation
supporting my claim;
Reviewing my initial complaint, I filed with district court, I did demonstrated judge Mellissa T
Pavlack, lacked jurisdiction, Title FV-D contains no private remedy 42 USC 609(a)(8) she
seized my assets under a color of law, to avoid the states reduction federal grant money, due to
a non compliance, third circuit, district, shouldn’t have had issues with term contract,
involuntary servitude, I demonstrated that Mellissa T Pavlack has cooperative arrangements, an
implied contract, with the government, to locate noncustodial parents establishing, paternity to
receive funding 45 CFR 302.34 see 31 U.S 6305 as I addressed, this contract denies equal
protection, due process, right to privacy, gives courts rights to seize property under a color of
law, by default, with no trial or jury Pa CSA 4342(e) 42 U.S 666
In my case, under these provisions, domestic relations, a single separate unit 42, U.S 654, not a
competent court of jurisdiction, was able to send fictions court documents to my residences,
obtain personal jurisdiction over me in the state of North Carolina, make default judgment with
judge Kelly, this denies due process,. My right to privacy was violated under Title 23 43041 and
4305,( PA), judge Mellissa T Pavlack, has special interest in this matter under Title 23 chapter
4373 an incentive base program denies equal protection, especially when it’s based off quota
PIQ-03-01

judge Mellissa T Pavlack, Judge Kelly, domestic relations, will violate your

constitutional rights, to maintain federal funding. For example, according to the federal Child
support manual, voluntary consent is required to establish paternity; declaring someone father as
a child by default isn’t protocol
Page 6 of 9

The thirteenth amendment forbids involuntary servitude excepts punish for a crime., In criminal
purposes, it means a condition of servitude in which a victim is forced to work for the defendant
by use of threat of physical restraint or physical injury or by the use of threat coercion through
law or legal United States v ike kozminski 487 U.S 931(1998) reviewing Pennsylvania statues Pa
CSA 4342(e) it references, contempt proceedings, coercion, jail time for refusal to pay,
whenever I use my social, domestic relations tracks me down, sends a withholding to my
employer, child support is then deducted, that’s involuntary servitude. I had no reasonable
means to escape; a social is needed for employment, bank account, loans; enjoyment rights
secured by the constitution
VII. CONCLUSION
Judge Elizabeth K Kelly, Judge Melissa, never had personal jurisdiction, a case of controversy,
Jurisdictions consists of two opposing parties, contrary to that, there’s no real dispute. Lord v
Veazie, 49 U.S 8 How, 251 251(1850) Cleveland v Chamberlain 66, U.S1 Black 419 419(1861)
Steel CO. v Citizens for Better Environment 523 U.S 83(1998)
The Judicial tribunal is limited determining the rights of persons, or of property which is are
controverted, cannot declare future cases for the government principals rules of law Tyler v
judges of the court of registration 179 U.S 405 at 179 U.S409 (12/17/1950)
Pursuant to 45 CFR 303.34 Judge Melissa T Pavlack has cooperative arrangements to provide
assistance to the title IV agency 45 CFR 302.3,4 which is domestic relations, a single separate
unit 42, U.S 654, Judge Melissa T Pavlack under this provision, is acting administratively, non
judicial, in her own private persons forester v White 484 U.S.219 (1988);

Page 7 of 9

The colorful Title IV-D is simply a yardstick for the Secretary to measure the system
wide performance of a State's Title IV-D program, allowing her to increase the frequency of
audits and reduce the State's federal grant upon a finding of substantial noncompliance. 42 USC
609(a)(8)
Judge Melissa T Pavlack, conspired with domestic relations, to seized my banking assets under a
color of law, to suit the state, simply for a noncompliance, to avoid states reduction of federal
grant money, Figueroa v Blackburn 208F.3d 435 (2000) does not apply to my case, Subject
matter jurisdiction is only determined from pleadings” Hall v State, 933 S.W.2d 363,326 AR
1996; Judge Melissa T Pavlack, Judge Elizabeth K Kelly only obtained jurisdiction under a color
of law; the only discretions is the states incentives base program, meeting quota PIQ-03-01
District court granted my motion to amend; the motion for consideration was denied without
reason, there’s nothing on record, contrary to what’s on filed, it should be granted. In my appeal
to third circuit on record, I demonstrated thoroughly, a conspiracy, deprivation of rights claim, it
should be granted
Vm PETITION FOR WRIT OF CERTIORARI SHOULD BE GRANTED
This petition should be granted because the state courts judgment is void,, based off judicial
precedent, it must be vacated under rule 60 Judge Melissa T Pavlack acted in clear absent of
jurisdiction, A void judgment which includes judgment entered by a court which lacks
jurisdiction over the parties or the subject matter, or lacks inherent power to enter the particular
judgment, can be attacked at any time, in any court, either directly or collaterally”, provided that
the party is properly before the court, Long v. Shore bank Development Corp., 182 F.3d 548
(C.A. 7 Ill. 1999).
Page 8 of 9

It is clear that a judge who acts in the absence of subject matter jurisdiction may be held liable
for judicial acts stump v Sparkman 435 U.S. 349,98 S CT. 1099 (1978)
Where judge presumes to exercise jurisdiction beyond understood boundaries, judge is not
entitled to immunity. Dykes v Housemann, 743 F.2d 1488 (11th Cir. 1980)
When a judge knows that he lacks jurisdiction, or acts in the face of clearly valid statutes
expressly depriving him of jurisdiction, judicial immunity is lost. Ranking v Zeller 633 F.2d
844(1980)

WHEREFORE, the reasons stated herein, Writ of certiorari should be granted,

Respectfully submitted
Jamaal AGittens

1206 Marlene Street

Type or printed notary name

Charlotte NC 28208

Seal

(704) 975-8173

- Place Notary Signature Above My commission expires
Date

Page 9 of 9

